<html>
<title> - PREVENTING SEXUAL HARASSMENT IN THE CONGRESSIONAL WORKPLACE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



      PREVENTING SEXUAL HARASSMENT IN THE CONGRESSIONAL WORKPLACE

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2017

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
      
                             

                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
   
                                  __________
    
                        U.S. GOVERNMENT PUBLISHING OFFICE
                   
   31-447                     WASHINGTON: 2018

   
   
   
   
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia




 
      PREVENTING SEXUAL HARASSMENT IN THE CONGRESSIONAL WORKPLACE

                              ----------                              


                       TUESDAY, NOVEMBER 14, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Comstock, Walker, 
Smith, Loudermilk, Brady, Lofgren, and Raskin.
    Also Present: Representatives Brooks and Speier.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/Policy and Oversight; Bob Sensenbrenner, General 
Counsel; Dan Jarrell, Legislative Clerk; Erin McCracken, 
Communications Director; Jamie Fleet, Minority Staff Director; 
Khalil Abboud, Minority Deputy Staff Director; Eddie Flaherty, 
Minority Chief Clerk; and Teri Morgan, Minority Deputy Staff 
Director/Counsel.
    The Chairman. I now call to order the Committee on House 
Administration for purposes of today's hearing, titled 
``Preventing Sexual Harassment in the Congressional 
Workplace.''
    The hearing record will remain open for 5 legislative days 
so Members may submit any materials they wish to be included.
    A quorum is present, so we may proceed.
    At the outset, I ask for unanimous consent the Committee on 
Ethics Chairwoman, Susan Brooks, and Ranking Member, Ted 
Deutch, be permitted to sit on the dais and question all the 
witnesses today.
    Without objection, that is approved.
    I also ask for unanimous consent that Representative Speier 
be afforded the opportunity to sit on the dais and question our 
second panel of witnesses.
    Without objection, so ordered.
    I would like to thank all of our witnesses for taking time 
out of their busy schedule to be with us today on this very 
serious issue. And I commend Speaker Ryan for bringing this 
important issue to the forefront and for tasking this committee 
to undertake a comprehensive review. Today's hearing is a 
critical part of that review process.
    First and foremost, let me say that there is no place for 
sexual harassment in our society, period, and especially in 
Congress. This is an extremely important topic, and it will 
take all of us working together to effectively address this 
issue. I believe, as Members of Congress, we must hold 
ourselves to an even higher standard, a standard that 
demonstrates that we are worthy of the trust placed on us by 
our constituents and the American people.
    The disturbing accounts of sexual harassment experienced by 
current and former Members, including one of our witnesses 
today, revealed that sexual harassment is a serious problem in 
our society, and Congress is not immune from this issue. It is 
no secret the culture on Capitol Hill is unique. While there 
are 441 employing offices in the House among Members and 
Representatives, we should all share the common goal of 
creating safe and effective work environments that are 
productive, collegial, and responsive to the needs of our 
staff, constituents, and the public.
    The personal accounts described by current and former 
colleagues and staff suggest that not every office is achieving 
this goal. These accounts dictate the need for a comprehensive 
review of the House's policies and procedures, as well as the 
resources available as it relates to sexual harassment in the 
workplace. Currently, sexual harassment awareness training is 
not mandatory for Members and staff. There is also concern that 
victims of sexual harassment are not aware of the resources 
available to them. Some have criticized the process that 
currently exists to adjudicate claims of sexual harassment.
    Today, we will hear from two Members, one of whom was a 
victim of sexual harassment while a congressional staffer and 
the other who specialized in employment discrimination 
litigation, including sexual harassment cases, before his 
election to Congress. In addition, we will hear from 
representatives of the Office of Compliance and the Office of 
House Employment Counsel, two entities that are responsible for 
providing training and resources to Members and staff, among 
other services.
    The Office of Compliance is an independent agency 
established by the Congressional Accountability Act to 
administer and enforce the provisions of the act. While the 
Office of Compliance is responsible for educating and training 
Members, staff, and the public on workplace issues, there are 
individuals, like Representatives Speier and Holmes Norton, who 
have spoken publicly about the need for the Office of 
Compliance to do more.
    The Office of House Employment Counsel, located within the 
Office of the Clerk, provides training and resources for 
Members and chiefs of staff, as well as training for the entire 
office. In addition, the Office of House Employment Counsel 
represents employers in the Office of Compliance proceedings.
    Several bills and resolutions have been introduced in the 
House seeking changes to the process, many of which involve 
making training mandatory for all Members and staff.
    According to the Office of Compliance, and I quote: It is 
widely acknowledged that antidiscrimination and antiretaliation 
training for employees provides many benefits to the workplace. 
Education directly impacts employee behavior. A comprehensive 
training program continues to be the most effective investment 
an organization can make in reducing complaints and creating a 
more productive workforce.
    Now, I believe we need mandatory training--I think probably 
everyone here will agree--as well as a more organized and 
comprehensive approach to address sexual harassment in the 
congressional workplace. As I said at the beginning of my 
remarks, this hearing is just the first step in our review. I 
look forward to hearing from each of our witnesses today on 
both panels.
    Mr. Brady, I will now recognize you for the purposes of an 
opening statement.
    Mr. Brady. Thank you, Mr. Chairman. And, Mr. Chairman, 
thank you for calling this hearing today.
    The congressional workplace should have zero tolerance for 
sexual harassment and any kind of discrimination. That is why I 
was pleased to be one of the first sponsors of the 
Congresswoman from California's resolution. Congresswoman 
Speier's courage and her determination deserve the respect and 
attention of Members of Congress, and her plan deserves action. 
I thank her very much for being here today.
    The Congresswoman's proposal would require mandatory 
training for Members and staff. It would also require the 
Office of Compliance to get back to us very quickly on 
additional improvements to their program. This bipartisan 
legislation is a first step, and the House should pass it 
immediately. I want to emphasize that this should be just a 
first step.
    I hope we can also look at ways to strengthen and clarify 
our dispute resolution process and other ways to support the 
Office of Compliance, including with additional money. I have 
supported additional appropriations for the Office of 
Compliance every year they have asked and this important agency 
worthy of our support.
    I thank our witnesses for being here today, and I am glad 
that Ms. Speier will be joining us on the dais after her panel 
discussion.
    I am also pleased the Ranking Member of the Ethics 
Committee, Mr. Deutch, will try to join so the Ethics Committee 
will have a role to play in holding all of us to the highest 
conduct.
    Again, thank you, Mr. Chairman, and I yield back the 
balance of my time and look forward to our witnesses' 
testimony.
    The Chairman. Thank you, Mr. Brady.
    I now recognize Barbara Comstock for the purposes of an 
opening statement.
    Mrs. Comstock. Thank you, Mr. Chairman.
    In recent weeks, sexual harassment and sexual violence by 
powerful men have come to light as never before. People have 
named names, and there is a renewed recognition, rightfully, of 
this problem and the need for change of a culture that looks 
the other way because of who the offenders are. Whether it is 
Bill Cosby, Harvey Weinstein, Bill O'Reilly, Mark Halperin, 
Roger Ailes, Kevin Spacey, or one of our own, it is time to 
say: No more.
    I have been an intern in this body. I have been a staffer 
like our witness here today. I have been counsel on committee 
and now as a Member. So I particularly appreciate the 
opportunity for this hearing today. And I appreciate that we 
have already committed to mandatory sexual harassment training 
for all of the Members--emphasize Members--and staff. And I 
think we do have a consensus of the need to have improved 
training, training materials and practices, making sure we are 
getting better reporting, a better response feedback loop, 
really knowing what is going on with surveys or other types of 
things, but, most importantly, to protect the victims. I know 
we will be exploring that in weeks to come.
    We need to know more of examples of what is actually 
happening and making it easier for the victims to come forward. 
We know there are so many who are in the shadows or forgotten 
because their situations may have happened at a time where less 
attention was paid.
    Last night, I had the opportunity to talk to Dorena 
Bertussi, who, in 1988, filed the Hill's first successful 
harassment complaint, 30 years ago, against Representative Jim 
Bates of California. In a recent interview in Roll Call--and I 
hope you have seen that, if you haven't read it--she noted how 
most--she had many women in her office who had the same 
experience, but only she and one other came forward. But she 
felt it was so important. In speaking with her and seeing how 
brave she had been--because this was 30 years ago--you could 
hear the pain still in her voice in telling that story. But you 
could also hear the strength and the resolve. And women need to 
hear that and know that we will be there to back them up.
    And, you know, and I think it is important we name names. 
The Hollywood rumors, all these things, people had heard these 
rumors for years. One of Roger Ailes' victims was a friend of 
mine. I never knew this had been something that had happened to 
her until I read her story in The New York Times. And I knew it 
was true because I knew her, talked to her about it after. But 
I was here in the time of Bob Packwood, Charlie Wilson, and I 
was thinking some of the things--you know, Charlie Wilson said: 
You can teach them to type, but you can't teach them to grow 
breasts. He used a more vulgar term.
    And I wanted to close with something that I just had 
somebody tell me recently. This is about a Member who is here 
now. I don't know who it is. But somebody who I trust told me 
the situation.
    This Member asked a staffer to bring them over some 
materials to their residence. And the young staffer is a young 
woman, went there, and was greeted with a Member in a towel--it 
was a male--who then invited her in. At that point, he decided 
to expose himself. She left, and then she quit her job. She 
left. She found another job. But that kind of situation, what 
are we doing here for women right now who are dealing with 
somebody like that?
    So this is really a much more complex situation than I 
think--you know, we need to have more training, know about the 
violence that we are seeing in some of these--that are 
criminal. Like, we get people into the criminal system when you 
have a crime--I would argue, that probably is a crime in that 
situation--and have people know that. And then that we have a 
much better process so that that person doesn't have to give up 
her career.
    I was listening to one of the victims of Mark Halperin, and 
she was talking about how she was very strong, left, didn't do 
anything. But there were other women who left their desired 
profession altogether because of what had happened. And we 
can't have that happen.
    So, Mr. Chairman, I really appreciate your giving us this 
opportunity. And I know we are going to have more hearings. I 
think it is important that we do that and that we hear more 
from the people who have been in the shadows.
    Thank you.
    The Chairman. The gentlelady yields back.
    The Chair will now recognize Congresswoman Zoe Lofgren for 
purposes of an opening statement.
    Ms. Lofgren. Thank you, Mr. Chairman.
    There is no question that sexual harassment in the 
workplace, including Congress, must be addressed. And I want to 
thank Chairman Harper and Ranking Member Brady for today's 
hearing on this important subject.
    And I want to thank the witnesses, Congressman Bradley 
Byrne, and Representative Jackie Speier for coming before us 
today to help us examine how we can make improvements to our 
policies and procedures for preventing sexual harassment as 
well as for handling complaints once they are filed.
    Now, Representative Speier's resolution, the CEASE Act, 
calling for mandatory sexual harassment training, is a step in 
the right direction. But as she and I have discussed, it is not 
the end. We need to examine dispute processes at the Office of 
Compliance to make sure victims can expeditiously have their 
grievances heard. And I think this is especially important 
because sexual harassment is often about power. It is not just 
about sex. It is about abuse of power. And our hard-working 
staff and others need to have an advocate just as powerful on 
their behalf.
    Mandatory training is long overdue. The Office of 
Compliance has been recommending it for 20 years, and the 
Senate just unanimously passed a resolution mandating it last 
week. It seems to me if Senator Ted Cruz and Elizabeth Warren 
can agree, we should also be able to agree on our side of the 
building. The online training is just a small start. But study 
after study shows that in-person training is where you have the 
most progress in changing workforce behavior. We need to do a 
better job of advertising resources that are available, but we 
also need improvements in the process once people do make a 
complaint.
    I just want to make a special word about Congresswoman 
Jackie Speier. Years ago, she and I were staff compatriots. We 
worked on the Hill at the same time. She worked for Congressman 
Leo Ryan from the mid-peninsula, and I worked for Congressman 
Don Edwards just south of that district. It was a wild and 
crazy time in many ways in our history. We had the impeachment 
of Richard Nixon, the war, and the disruption and the like, but 
one of the things that Jackie has talked about now--and I give 
her so much credit--is the assault that she suffered. I think 
it is so important that she had the courage and the grace and 
dignity and grit to speak up about what happened to her. And I 
know that that has encouraged other people to step forward and 
take on and know that they can speak up too.
    So I just want to thank Jackie for being here today, for 
the lead that she has taken on this issue and so many others. 
She is a great lawyer, a terrific leader, and not afraid of a 
darn thing.
    So I thank you, Jackie, Congressman Byrne, and I yield back 
the balance of my time.
    The Chairman. The gentlelady yields back.
    Anyone else on the Republican side wishing to be recognized 
for an opening statement?
    I recognize Mrs. Brooks for 5 minutes for an opening.
    Mrs. Brooks. Thank you, Chairman Harper and Ranking Member 
Brady. As Chairwoman of the House Ethics Committee, I am really 
very pleased to be a part of this hearing today. We know in the 
House Ethics Committee that the House does have problems with 
addressing both reported and unreported sexual harassment as 
just described by Representative Comstock. And the House Ethics 
Committee is committed to working with your committee to 
eliminate harassment that occurs through ensuring that our 
Members and staff are trained and have better training. And we 
need to ensure that we are protecting the victims of harassment 
when it does occur.
    Sexual harassment is strictly prohibited by our code of 
official conduct. Let me repeat that: Sexual harassment is 
strictly prohibited by the House's code of official conduct and 
something that the House Ethics Committee takes very seriously.
    For background, at the House Ethics Committee, we have two 
separate functions as they relate to sexual harassment. First, 
we have an advice and education division. The attorneys in 
advice and education are trained when approached with a 
harassment issue to advise the person seeking advice to contact 
Office of Compliance. These discussions with our attorneys on 
our committee are strictly confidential, so I cannot report on 
the number of harassment instances raised with the committee. 
But I can report that the advice given is to educate the advice 
seeker on their options.
    The second function of our committee is to conduct 
investigations when allegations are made. And should someone be 
interested in initiating an investigation, they can contact the 
House Ethics Committee investigation division.
    The committee and I personally share this committee's goal 
of protecting victims of harassment. I look forward to learning 
from this hearing, ways we can improve the House generally and 
how we can ensure that we take the lessons learned from today's 
hearing and improve the House Ethics Committee's process as 
well.
    And, in closing, I would like to just commend the three 
female Members here who have just shared and, as we have 
learned, all started as staffers. And it is very important--and 
I am just pleased to be a part of this today. I was not a 
staffer here on the Hill. I had never worked on the Hill prior 
to coming to Congress, but I think it is very powerful that the 
three of you who are here in many ways representing House staff 
and now as strong voices on behalf of not only your districts 
but on behalf of the country as Members. So thank you.
    And I yield back.
    The Chairman. Congresswoman Brooks yields back.
    The Chair will now recognize the gentleman from Maryland, 
Mr. Raskin, for the purposes of an opening statement.
    Mr. Raskin. Mr. Chairman and Ranking Member Brady, thank 
you very much for calling this hearing. And I also want to 
thank our distinguished witnesses for their leadership and 
their perseverance in dealing with this issue.
    The Nation is in an uproar today over sexual assault and 
sexual harassment. From the studios of liberal Hollywood to the 
studios of FOX News, from Wall Street to Alabama, there is a 
tectonic shift taking place in women's unwillingness to put up 
with what prior generations of women were often forced to 
accept as business as usual. And I believe the public generally 
has seen enough too and wants action.
    In Congress, we must be leaders in changing a culture of 
sexual harassment and assault, not just by what we say in our 
legislation but by what we do in our own workplace. Justice 
Brandeis once said: ``Our government is the potent, the 
omnipresent teacher. For good or for ill, it teaches the whole 
people by its example.''
    Mr. Chairman, sexual harassment at work is a pervasive 
problem that has been documented. The EEOC estimated that 
anywhere from 25 percent to 85 percent of women have 
experienced sexual harassment in the workplace. And let's be 
clear that it is illegal. Whether it takes the form of quid pro 
quo sexual harassment or hostile workplace environment 
harassment, it constitutes sex discrimination and degrades the 
professional status and social position of women.
    To think that this body is somehow immune from sexual 
harassment and abuse of women would be naive at best. At last 
count, more than 1,500 former staffers signed a petition 
directly calling on us to reform policies aimed at preventing 
sexual harassment and adjudicating complaints.
    My chief of staff, Julie Tagen, who has spent most of her 
career on Capitol Hill, says she does not know a single woman 
in her age group who has not experienced inappropriate conduct 
in the workplace. As businesses across the country face their 
responsibilities for creating harassment-free workplaces, we 
must do our own part and lead by example in the public sector.
    A critical first step is requiring annual mandatory sexual 
harassment prevention and response training for Members of 
Congress and staffers alike, just as we require ethics and 
cybersecurity training.
    I am a proud cosponsor of Representative Speier's CEASE 
resolution, House Resolution 604, the Congressional Education 
About Sexual Harassment Eradication Resolution. And I would 
urge the House to quickly move to adopt this measure as the 
Senate did last week.
    Although this is an important place to start, mandating 
annual sexual harassment training is not sufficient. We must 
examine existing dispute resolution processes, which recent 
incidents suggest may be acting still as a deterrent to 
reporting and resolving problems. I am eager to hear from our 
witnesses today on what more can be done, and I understand that 
there are multiple proposals that have been put on the table 
aimed at encouraging reporting, soliciting feedback, promoting 
a healthy workplace environment, and protecting staffers 
against retaliation.
    I am eager to learn how we can work together in a 
completely bipartisan way, Mr. Chairman, to create a workplace 
safe for all of our employees and that all Americans can be 
proud of. Thank you, and I look forward to the testimony today.
    The Chairman. The gentleman from Maryland yields back.
    I would now like to introduce our witnesses on our first 
panel.
    Representative Jackie Speier represents California's 14th 
Congressional District. She serves on the House Committee on 
Armed Services as the Ranking Member of the Subcommittee on 
Military Personnel and on the House Permanent Select Committee 
on Intelligence. She received her B.A. in political science 
from the University of California at Davis and a J.D. from UC 
Hastings College of Law. Representative Speier has been and 
continues to be a tireless advocate for women's rights. We 
appreciate her efforts in raising awareness of sexual 
harassment and being with us today.
    Representative Bradley Byrne represents Alabama's First 
Congressional District. In Congress, Representative Byrne 
serves on the House Committee on Armed Services as well as the 
Education and Workforce Committee. After completing his 
undergraduate studies at Duke University, Representative Byrne 
received his law degree from the University of Alabama School 
of Law. He practiced labor and employment law in Alabama for 
over 30 years.
    During Representative Byrne's practice, he advised multiple 
businesses on harassment policies, protocol and procedures, and 
litigated numerous employment cases. He also has overseen 
multiple sexual harassment investigations over his many years 
of practice.
    So, Representatives Speier and Byrne, the Committee has 
received your written testimony.
    You will now each be given 5 minutes to present a summary 
of that submission. And to help you keep time, as you have done 
on the other end, you know how it works. Five minutes. With 1 
minute to go, it will go yellow. With time up, it will go red. 
And we certainly want to thank both of you for this time.
    So the Chair will now recognize Representative Speier for 5 
minutes for her summary.

   STATEMENT OF THE HON. JACKIE SPEIER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Speier. Chairman Harper, Ranking Member Brady, Members 
of the Committee, thank you so much for the opportunity to 
speak to you. And let me begin by saying how impressed I am at 
the seriousness with which you are undertaking this issue. It 
is complex, and it will be at times uncomfortable to deal with 
it.
    It is important to note that two out of three sexual 
assaults go unreported in this country, and oftentimes, sexual 
harassment leads to sexual assault.
    Since I shared my own story on #MeTooCongress, I have had 
numerous meetings and phone calls with staff members, both 
present and former, women and men who have been subjected to 
this inexcusable and oftentimes illegal behavior. In fact, 
there are two Members of Congress, Republican and Democrat, 
right now, who serve, who have been subject to review--or not 
have been subject to review but have engaged in sexual 
harassment. From these harasser propositions such as, ``Are you 
going to be a good girl,'' to perpetrators exposing their 
genitals, to victims having their private parts grabbed on the 
House floor, all they ask in return as staff members is to be 
able to work in a hostile-free work environment. They want the 
system fixed and the perpetrators held accountable.
    I have been working on this issue since 2014 and believe 
there are three steps Congress needs to take to fix the 
egregious and sometimes illegal behavior. The first step is to 
require sexual harassment prevention and response training 
every year for both Members and staff, just like ethics and 
cybersecurity training. The existing Office of Compliance 
online training model is a start, as some of you have pointed 
out, but it is not adequate. Research has found that effective 
training requires in-person, interactive instruction and 
dialogue. A simple change to the House rules will achieve this 
result, and there is already legislation coauthored by many of 
you, H.R. 604.
    And I want to give special thanks to Ranking Member Brady, 
Representatives Costello, Poliquin, Lofgren, and Raskin for 
their coleadership on this issue.
    Second, we can't fix what we don't know. In my experience 
working on sexual harassment and sexual violence on college 
campuses, in academia, and in our military, climate surveys are 
conducted regularly and are key to recognizing the scope of the 
problem and to evaluating the effectiveness of reforms. That is 
why Congress should institute a congressional climate survey 
every 2 years.
    Third, we must reform the broken dispute resolution system. 
The present system may have been okay in the dark ages. It is 
not appropriate for the 21st century. Under the current 
process, as you see on the monitor, congressional employees are 
at best unaware or confused, and at worst, they are utterly 
betrayed.
    This flowchart shows the current process. First, you report 
the instance to the OC. You then have mandatory counseling for 
30 days. After that, you are required--and I underscore 
``required''--to sign a nondisclosure agreement before you even 
begin mediation. You then have mandatory mediation for 30 days. 
Additionally, the harasser and the Member's office are 
represented by House of Representatives Counsel. Now, listen. 
How does that compute? They are provided free legal counsel. 
The victim is not.
    I have also heard from mediators who say the congressional 
process is atypical in that survivors don't have the option to 
be in separate rooms as the defendant's counsel and that 
survivors are often addressed in an aggressive manner. 
Additionally, the fact that House Counsel works on behalf of 
the alleged harasser during mediation and then is charged with 
advocating to this Committee for the settlement agreement on 
behalf of the survivor seems to be a conflict of interest.
    If the employee makes it this far, they then have to go 
through another 30 days of what they call a cooling-off period. 
So now 90 days have elapsed, and that employee is still 
required to work in that legislative office or else they are 
not eligible for services through the OOC.
    Now, I might also point out at this junction that interns 
and fellows don't even have this process to access. So they 
have nowhere to go.
    After the 30 days cooling-off period, then you can either 
file a formal complaint in a Federal district court or you can 
have an administrative hearing where there are negotiations, 
the settlement is approved, and then we move forward.
    So, for the few survivors who secure a settlement, there is 
no disclosure of the office involved or the amount of funds. 
Taxpayers foot the bill, and the harasser goes on with his or 
her life. There is zero accountability and zero transparency. I 
might also add that, during that process, the victim can't even 
communicate that they are going through an OOC process to their 
family, to their friends, or to anyone in their religious 
community.
    So it is really no wonder that staffers do not seek this 
process at all. And, finally, as one of them said to me who I 
met with last week: I am a single mother; I can't afford to 
lose my job. The thought of being blackballed in this 
institution, the thought of being somehow subject to reprisal, 
all of that has an effect.
    So I really feel that it is important for us to move 
forward, not just with training but to move forward with a 
comprehensive reform of the Office of Compliance.
    Mr. Chairman, I would like to ask unanimous consent to 
submit the letter for the record of some 1,500 former members 
of staff in Congress. And I think I have made copies available 
to all of you. If you flip through those pages, you will see 
that they--they range back in the seventies, all the way to the 
current time.
    The Chairman. Without objection.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Speier. With that, I yield back.
    [The statement of Ms. Speier follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Congresswoman Speier, for that 
very powerful and insightful testimony that you have given us 
today.
    The Chair will now recognize Representative Bradley Byrne 
for the purposes of an opening statement.
    We look forward to hearing from you, Congressman Byrne, on 
your experience to let us know what is happening in the private 
sector and your time that you spent working on those cases. So 
the Chair now recognizes you for 5 minutes.

   STATEMENT OF THE HON. BRADLEY BYRNE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ALABAMA

    Mr. Byrne. Thank you, Chairman Harper and Ranking Member 
Brady, Members of the Committee. I appreciate the opportunity 
to testify before you today on this important topic.
    The Civil Rights Act of 1964 prohibits discrimination on 
the basis of race, color, religion, sex, national origin. In 
1986, sexual harassment was recognized by the Supreme Court as 
a violation of title VII. In 1995, Congress passed the 
Congressional Accountability Act, or CAA, subjecting us to 
title VII.
    Based on my prior experience and recent research into the 
current policies regarding harassment here in Congress, I want 
to make a few observations and offer some of my own 
suggestions.
    First, we need to mandate harassment training. I strongly 
believe the House should require mandatory sexual harassment 
training for all Members and employees. Recent events have 
demonstrated that training, while available to Members of 
Congress and employees, is underutilized. I will also note that 
mandatory training at the House is not unprecedented and is 
already required for ethics and computer security.
    There are also multiple harassment trainings currently 
provided by different congressional support offices. It is my 
opinion that this Committee should settle on one high-quality 
training product to make sure that all House employees are 
trained in the same manner.
    Number two, we should consider a universal harassment 
policy for all House employees. Although not required by law, 
creating and enforcing antiharassment policies is now a near 
universal norm in the private sector. As you are aware, each 
individual congressional office is an independent hiring 
authority, and each office has its own policies. Given the 
unique nature of House employment, it is my opinion that a 
uniform, universal antiharassment policy based upon the CAA and 
applicable to all House Members and employees would be much 
more effective in curbing unwanted sexual harassment than the 
current patchwork of different harassment policies that we have 
today throughout offices on Capitol Hill. With a universal 
policy, the training of House employees would be simplified and 
made consistent across the House.
    Number three, we should examine the Congressional 
Accountability Act to consider improvements to the complaint 
and enforcement process. It has been over 20 years since 
Congress enacted the Congressional Accountability Act. I 
believe this is an opportune time to revisit and consider 
revisions to this important statute. The statutory provisions 
governing harassment claims in the legislative branch are 
different than those that govern private sector employment and 
other public employees.
    In the private sector, the EEOC administers and enforces 
laws against workforce discrimination. The EEOC investigates 
discrimination complaints based upon a protected class. The 
process begins by an aggrieved party filing a charge with the 
EEOC. The EEOC then has the option to request the parties 
engage in mediation. However, mediation is not required for 
either party. If mediation is not requested or it is 
unsuccessful, the EEOC has investigatory power, including 
subpoena power. After the investigatory process is complete, 
the EEOC has the right to bring a case upon an aggrieved 
individual's behalf or to issue the individual a right-to-sue 
letter allowing the aggrieved party to bring litigation.
    In contrast, the Office of Compliance has no investigative 
authority and cannot prosecute harassment claims, and the CAA 
requires mandatory counseling, as Ms. Speier pointed out, for 
those making claims. We should work to bring the OOC process 
and authority in line with that of the Equal Employment 
Opportunity Commission.
    Other suggestions for revisions to the act, in my opinion, 
would include subjecting our unpaid workforce, such as interns, 
pages, and fellows, to the act's antidiscrimination provisions. 
Certainly, these changes will increase the workload of the OOC, 
and we need to be prepared to provide them the necessary 
appropriations.
    Fourth, we need to increase Member accountability. Given 
the constitutional nature of our offices, Member-on-Member 
sexual harassment is not something where harassment law and the 
employment structure can easily be applied. In this matter, it 
is my opinion that we must exercise our constitutional duty to 
discipline our own membership. I believe we should adopt a 
specific policy for this kind of behavior in our code of 
official conduct, more expressive than the one we presently 
have, that would send a signal that Member-on-Member sexual 
harassment will not be tolerated and that Members of this body 
support those being harassed in reporting these incidents to 
the Ethics Committee.
    Moreover, while an employee may be able to obtain monetary 
relief under the CAA, a settlement or judgment is paid by the 
taxpayers. Personally, I find this unacceptable. If a Member of 
Congress settles a claim as the harasser or is found liable as 
a harasser, it is my belief that the Member should be 
personally liable or required to be repay the Treasury for such 
damages. Furthermore, any payment out of the Treasury in 
response to a claim of discrimination or harassment by a House 
office should be made in a manner that is fully transparent.
    Finally, it is my opinion that, given the inherent power 
differential between a Member and their staff that they 
supervise, we should include a strict prohibition on Members 
engaging in a sexual relationship with staff under their direct 
supervision.
    In closing, I appreciate the opportunity to share my 
observations and would be happy to provide more information to 
the Committee as necessary.
    [The statement of Mr. Byrne follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I want to thank you, Congressman Byrne, for 
your testimony and with your experience that you bring.
    And, Congresswoman Speier, we want to thank you, as well. I 
know that this is such an important issue. And you have given 
us much to think about as we go through this review process.
    So, with that, we will excuse you.
    And I believe Congresswoman Speier will move up to the 
dais.
    We will now take just a moment to get our second panel in 
place.
    Ms. Lofgren. Mr. Chairman, the Judiciary Committee has the 
Attorney General as a witness in oversight right now, so I am 
going to excuse myself.
    [Recess.]
    The Chairman. I want to thank our witnesses on the second 
panel for being here and taking the time to come educate us as 
we discuss this very serious issue of how we are going to 
prevent sexual harassment in Congress as we go forward.
    I would now like to take a moment to introduce each of you. 
Ms. Barbara Childs Wallace currently serves as the Chair of the 
Board of Directors of the Office of Compliance. She received 
her undergraduate degree from Purdue University in 1973, her 
J.D. from Loyola University in Chicago in 1977, and an LL.M in 
labor law with highest honors from the National Law Center of 
George Washington University in 1979. Ms. Childs Wallace has 
worked at Carter Child and Caraway since 1983 in the field of 
labor law, giving her 37 years of experience in this area. She 
also served as chairman of the Labor and Employment Section of 
the Mississippi Bar Association.
    And we welcome you, Ms. Childs Wallace.
    Ms. Gloria Lett currently serves as Counsel to the Office 
of House Employment Counsel. She received her undergraduate 
degree from State University of New York and her J.D. at George 
Washington University. Prior to serving as counsel, Ms. Lett 
was a corporate attorney handling employment law issues and 
litigation for a large telecommunications company. She also 
served as an assistant corporation counsel representing the 
District of Columbia in civil litigation, as a Special 
Assistant United States Attorney for the District of Columbia 
handling criminal prosecutions, and as an attorney for the 
Equal Employment Opportunity Commission.
    We welcome you, Ms. Lett.
    The Committee has received each of your written 
testimonies. Each witness will have 5 minutes to present a 
summary of that submission.
    As you know, to help you keep the time, when I recognize 
you, the light will be green for 4 minutes. It will turn yellow 
for the last minute and red when the time is up. So, at this 
time, the Chair now recognizes for the purposes of an opening 
statement Ms. Barbara Childs Wallace.

     STATEMENTS OF BARBARA CHILDS WALLACE, CHAIR, BOARD OF 
  DIRECTORS, OFFICE OF COMPLIANCE; AND GLORIA LETT, COUNSEL, 
               OFFICE OF HOUSE EMPLOYMENT COUNSEL

              STATEMENT OF BARBARA CHILDS WALLACE

    Ms. Childs Wallace. Thank you. Good morning, Chairman 
Harper, Ranking Member Brady, distinguished Members of the 
Committee of House Administration, Congresswoman Speier, and 
Congressman Byrne. It is an honor to be here today representing 
not only the Office of Compliance but its Board of Directors, 
which I chair. The other members of the Board are Susan 
Robfogel from New York, Roberta Holzwarth from Illinois, 
Barbara Camens from the District of Columbia, and Alan Friedman 
from California. And we were appointed to these part-time 
positions on the Board by the majority and the minority 
leadership of both Houses of Congress. We are required by the 
Congressional Accountability Act, or commonly known as the CAA, 
to each have professional expertise in the application of the 
workplace laws that apply to the legislature by the CAA. In 
fact, all five of us who are in private practice have decades 
of experience within the private sector and a few of us also 
within the Federal Government in both labor and employment and 
discrimination issues.
    The CAA also requires that we are to be appointed without 
regard to political affiliation. Our Board has been serving 
since 1999, and we have worked diligently and in a nonpartisan 
manner during this time to try and ensure the rights of all 
individuals working on the Hill, that they are protected. I 
also want to thank the members of our staff, many of whom are 
here with me today. The OOC has a huge mandate from the 
statute, which we accomplish with approximately 20 full-time 
employees. They are very skilled and equally committed to the 
task laid out for us by the CAA.
    Finally, I want to especially thank Chairman Harper, who 
just happens to be my Congressman from Mississippi. I am 
originally from the Chicago area, but for the past 34 years, I 
have practiced employment law in Jackson, Mississippi. It is 
nice to see a neighbor holding the gavel, and we appreciate the 
fact so much that you have called for this important hearing to 
take place.
    As you know, Congress--and as has been testified to 
already--Congress created our office in 1995 under the CAA, 
which has incorporated 13 Federal workplace laws that are 
applicable in the private sector and the executive branch to 
the legislative community. This act designates three primary 
responsibilities for our office, although there are many other 
statutory functions that are performed in addition. First, we 
inspect the Capitol Grounds and the legislative branch 
facilities to ensure that our community is free from 
occupational, safety, and health hazards, and is accessible to 
persons with qualified disabilities. Second, and especially 
pertinent to the subject of this hearing, we provide an 
alternative dispute resolution program to covered employees who 
seek to assert their rights under the CAA. And, third, also 
pertinent to this hearing, our office maintains a robust and 
comprehensive outreach and education program to this community 
about their rights, responsibilities, and protections under the 
act.
    In addition, the CAA mandates that our Board report to 
Congress every 2 years on our recommendations for changes to 
the CAA based on the labor and employment laws in the private 
sector and in the executive branch. Mr. Chairman, since 2010, 
our Board has zealously advocated in these biennial reports, 
also known as our 102(b) reports, for mandatory training on how 
to prevent and remedy harassment, discrimination, and 
retaliation of all sorts in the entire legislative community, 
the sort of training that is regularly performed in the private 
sector and in the executive branch.
    It is with great satisfaction that we see that this 
Committee and the many lawmakers on Capitol Hill are responding 
to this recommendation. Before harassment can be corrected, 
everyone in the legislative community must understand the 
meaning of harassment, how to respond to it, and, more 
importantly, how to avoid it. Consistent with our statutory 
mandate to inform and to educate individuals within the 
legislative branch, our Board believes that mandatory training 
on harassment, discrimination, and retaliatory behavior will 
provide the best avenue to not only avoid the conduct in the 
future but to help transform the legislative branch into a 
model work environment whereby the lawmakers can and do lead by 
example.
    This concludes my remarks, and I ask that my extended 
statement that has been submitted to the Committee be included 
in the record of this hearing.
    I now looked forward to any questions that you might have. 
And thank you again.
    [The statement of Ms. Childs Wallace follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, so much, for your testimony.
    The Chair will now recognize Ms. Gloria Lett for 5 minutes 
for the purposes of an opening statement.

                    STATEMENT OF GLORIA LETT

    Ms. Lett. Good morning. My name is Gloria Lett, as you 
know, and I am one of the attorneys with the Office of House 
Employment Counsel, also known as OHEC. OHEC is basically an 
in-house law firm available to Members of Congress, each of 
which is a separate employing office, committees, House 
officers to provide advice and counsel on the various issues 
that arise under the Congressional Accountability Act and, 
specifically for the purposes of this hearing, the question of 
sexual harassment. We are there as a partner with employing 
offices to help them understand the issue of sexual harassment 
and to help them prevent and address the issue of sexual 
harassment when it does occur in the workplace.
    I am very grateful to be here, to have this opportunity to 
talk about my office and the resources that we do provide to 
House employing offices.
    OHEC basically has three core functions. Those are to 
provide counseling, to provide training, and to provide 
representation and litigation when employees raise claims of 
sexual harassment in their workplaces. The way that manifests 
itself--and I think it is important to keep in mind that our 
office is a nonpartisan office. All contacts with our office 
are confidential, protected by the attorney-client privilege. 
And so when we are called by employing offices to talk about 
these issues, I think it is a good model in that they can speak 
frankly to us. We can ask difficult questions. We can learn the 
good and the bad and the really bad and give them advice and 
counsel on how to address those issues. We talk about the legal 
issues, but more importantly, we talk about how the office can 
address issues and take appropriate corrective action to make 
sure that the behavior stops.
    That corrective action can range from counseling, sending 
an employee to training, or discipline up to and including 
termination. And there is accountability in congressional 
offices and House offices for individuals who engage in 
harassment. Sometimes they are, indeed, fired.
    The other part of our role is to provide training. We 
provide training on a request basis. We provide training on a 
regular basis. The House officers in IG, for example, schedule 
mandatory training for all new employees and all new managers. 
And they schedule that directly with our office, and we conduct 
that training.
    We also do training after there has been an issue of sexual 
harassment. So we go to district offices as a followup to make 
sure that the behavior doesn't happen again, and we do it on a 
request basis for those offices that are proactive on these 
issues.
    We do two--three types of training, actually. One is 
antiharassment training that is specifically for employees. 
Again, that is on a request basis by an office. And we educate 
employees about what sexual harassment is. That is in-person 
training. We have vignettes and video where we stop the 
training at each section, and we explain the behavior, and we 
have a conversation so that employees understand what they have 
seen and how it can be unlawful and how they can report that 
behavior to their management so that it can be addressed.
    We also do something called sensitivity training. The 
sensitivity training is broader because, as you know, sexual 
harassment is unlawful under title VII of the Civil Rights Act, 
but so is racial harassment and so is harassment based on an 
individual's religion. So we discuss those broader issues, but 
we discuss sexual harassment in the context of that training.
    And, lastly, we do training for managers. And that 
training, in my view, is vitally important to be in-person 
training because managers have to navigate around a lot of 
issues in order to properly handle the issue of sexual 
harassment. Not only do they face claims by employees who 
allege harassment, but they can also face claims by an employee 
who has been accused of harassment if the office doesn't 
properly investigate the issue and conduct it in a fair manner. 
So, if someone is accused of harassment and they feel that it 
was unfair or discriminatory, the result, they can also sue the 
office. And so we help offices manage that.
    And, lastly, we do represent employing offices in 
litigation when an employee goes to the Office of Compliance. 
Sometimes we know that those cases are going to happen because 
we have advised the office, and they have done everything in 
their power to correct the issue. And sometimes we don't know 
about it. And so we do represent them and do corrective action 
in that context as well. Thank you.
    [The statement of Ms. Lett follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I want to thank both of you for taking the 
time to be here and to educate us as we go through this 
critical review process and come up with a plan to make sure 
that we do prevent future cases of sexual harassment, hopefully 
decrease your workload in the process.
    So, at this time, the Members will have an opportunity to 
ask questions, and I will now begin by recognizing myself for 5 
minutes for questions.
    And I will start with you, if I may, Ms. Childs Wallace. 
And I want to thank you for that insight you have given us to 
highlight what the Office of Compliance's adjudication process 
is. So I have got a couple of questions just to make sure we 
understand that fully.
    I want you to describe the importance of each step in the 
process, and, for example, how important is the counseling 
intake step that you have? And why is confidentiality important 
during this phase?
    Ms. Childs Wallace. The counseling process, I think, is 
somewhat of a misnomer. It is more like an intake process. It 
is not therapy to the person who comes in seeking the--
initiating the counseling step. People who come to us often--
well, most likely are not lawyers. They don't know the statutes 
necessarily. And they need assistance to see whether or not 
their claims fit within the context of the 13 laws that are 
applicable under the CAA. To give you a very basic example, if 
you have someone who comes in and says, ``I think that I have 
been discriminated against on the basis of my age,'' and in the 
intake process, ``Well, how old are you?'' ``I am 30 years 
old.'' ``Our statute does not cover you until you are 40 for 
age discrimination.'' It is that kind of information that--it 
is a give-and-take to let them know the law. It also is a time 
when our office can explain what the proceedings are and the 
employee can determine whether or not they want to go that 
route. Oftentimes, things are resolved during that period very 
easily.
    Confidentiality is not meant to be a gag order.
    The Chairman. Uh-huh.
    Ms. Childs Wallace. It is confidential primarily for the 
Office of Compliance. We don't call up the employing office and 
say, ``Your employee has come in to see us about X, Y, and Z.'' 
What it is, is the employee still has the ability to go out and 
talk to their friends and neighbors and say, ``My supervisor 
has done A, B, and C.'' We don't contact the employing office. 
It is maintained confidentially so that the employee has a 
chance to learn the system, learn what the laws are.
    One thing about the 30-day period. The law specifically 
says that 30 days can be cut short on the request of the 
employee. So, if the employee comes in and gets the information 
that they need and they say, ``Fine, I know what I am going to 
do,'' counseling ends, and it may last 1 day. So it doesn't 
have to be a 30-day period.
    The Chairman. Talk to me for just a minute, if you would, 
about the mediation phase and what, just in general terms, what 
percentage of cases are resolved during that part of mediation?
    Ms. Childs Wallace. I don't have the specific statistics on 
it. But what I have been informed about from my staff is that 
about 40 to 50 percent of the cases are resolved during the 
counseling or mediation period. So that is a significant amount 
that are resolved.
    The mediation process is very similar to mediation that 
Congressman Byrne would have seen with the EEOC. It is not 
required that the employee attend. This is particularly 
important for employees in our district offices. It is not 
required that they sit in the same room with the person that 
is--that they are accusing of sexual harassment, for instance, 
in this instance. They can be in separate rooms. I have done 
countless mediations in my private practice where the two may 
never even look at each other. They may be in separate 
conference rooms and the mediator may go back and forth. So I 
think it is a valued procedure. I don't know the legislative 
history as to why Congress put it in there. But we have seen 
that it works. It does not have to go 30 days.
    The Chairman. Okay.
    Ms. Childs Wallace. If they meet together and the mediator 
and they say, ``This is not going to be resolved,'' they can 
cut it short, and the next process starts.
    The Chairman. Ms. Lett, if I may ask you, on the training 
that you referred to, you have, obviously, online training, and 
then you will also do in-person training. How much of your in-
person training is done here in the D.C. offices versus in 
district offices?
    Ms. Lett. We do training--typically, when an office asks 
for training, they ask for training for their entire staff. So 
we will do the training here in D.C. and in the district office 
as well.
    The Chairman. Got ya. You know, I know the office will 
typically contact you before they take employment actions, I 
assume. For example, do they contact you before taking 
employment actions or contact you generally regarding sexual 
harassment awareness?
    Ms. Lett. Congressman, I wish all of our clients contacted 
us before they took employment action. It doesn't always happen 
that way, but it typically does happen that way. And we work 
with them to get to the underlying issue, to find out if there 
is any merit to the allegation, to do an investigation, and 
then take appropriate corrective action.
    The Chairman. And you would usually come in during the 
mediation phase from OOC. Are you ever contacted before OOC, or 
is it typically just following what you hear from them?
    Ms. Lett. I mentioned earlier that sometimes we will know 
that an employee is going to go to the Office of Compliance. 
What the courts have said is that if an employer takes 
appropriate corrective action designed to stop the behavior, 
they are going to be insulated from liability in hostile work 
environment cases. But sometimes employees are not satisfied 
with that. So they will go to the Office of Compliance, and we 
expect it.
    As Barbara just mentioned, the counseling phase is 
confidential, but the employee can waive that and reach out to 
the employee. Typically, we will find out about mediation when 
there has been a notice of mediation issued.
    The Chairman. Thank you both very much.
    The Chair will now recognize Ranking Member Mr. Brady for 
the purpose of questions for 5 minutes.
    Mr. Brady. Thank you, Mr. Chairman.
    I have a question for both of you. It is important to have 
staff and managers participate in antiharassment training for 
the betterment of the workplace. Can you speak on how 
antiharassment and discrimination training directly relates to 
less complaints and a better workplace? Either one.
    Ms. Lett. I can take that one. I think it is very important 
that employees understand what sexual harassment is, that they 
have a right to come forward and report it, and that they will 
not be retaliated against if they do so. And that is what 
training accomplishes. It gives them knowledge. I think that 
that will invariably lead to less complaints because an 
employer can address the issue before it becomes a formal 
process where they go to the Office of Compliance.
    I just ran into a chief of staff that I have known since I 
started on the Hill in 1996. And she told me, in her 
experience, she has only ever had one situation with sexual 
harassment. And I know that there are obviously many cases that 
go unreported. But she said that it was a staffer in the 
office. He said something that was inappropriate. She called 
him into her office. She read him the riot act, and she told 
him if it happened again, he would lose his job. So, 
oftentimes, if employees are aware of these issues, it can be 
addressed at the earliest possible stage for the employee. And 
that is what we all want. We want employees to have safe and 
productive work environments.
    And I think it is important for employers to say to their 
employees: Please come tell us.
    When we do the training for the managers, we tell them how 
important it is to talk to your employees, to walk around, to 
respond to rumors or anything that you hear where someone might 
be feeling uncomfortable and then have a conversation with 
them. Oftentimes, these things can be addressed at the earliest 
possible stage.
    Ms. Childs Wallace. I agree with everything that Ms. Lett 
said.
    The one thing I do want to add to it is that training is 
yet another opportunity to tell the employees: Here is where 
you go if you have a problem; there is this entity called the 
Office of Compliance.
    One of the things that we are hearing so much in the media 
is that people on the Hill don't know who the Office of 
Compliance is. If there is a trainer in front of you that says, 
``There is this body, the Office of Compliance, and this is 
where you go to make a complaint,'' there is no reason why any 
employee on the Hill shouldn't know who we are and where we are 
located and how to make a complaint.
    I would like to correct one thing that I said about the 
mediation process, that that is a 30-day period that cannot be 
waived. And I misspoke on that.
    Mr. Brady. Most of the complaints about harassment that are 
filed with the Office of Compliance are coming from non-Member 
and noncommittee offices such as the AOC, CAO. How can we make 
staffers and Members and committee offices feel comfortable 
speaking up on their issues of harassment or discrimination?
    Ms. Childs Wallace. Well, I think that, in training that I 
have done in my private practice--and I think that Ms. Lett 
indicated the same thing--is it can be a dialogue. It can be 
talking about what is appropriate and what isn't appropriate. 
One thing I think that needs to be understood is there is 
illegal sexual harassment, and there are bad practices. And 
some things don't--a complainant might not win in court with 
what their complaint is, but they can still ruin the morale of 
an office and be inappropriate. And I think that the training, 
in-person training in particular, can go into both areas of 
what is illegal and what is inappropriate for this particular 
office.
    I think one thing that Congressman Byrne said in his 
statement about having a universal policy is very interesting, 
so that everybody is working on the same page and everybody 
knows, even in the office, as Ms. Lett was saying, where you go 
to complain within your office. But, also, a necessary 
component has to be who OOC is and what our purpose is in the 
whole process.
    Ms. Lett. And I agree with that, if I may respond. It is 
very important to have written policies. There is a model 
sexual harassment policy that is part of the model handbook 
that this Committee makes available to House employing offices. 
We worked with the Committee staff to develop that. And that 
policy basically sets out zero tolerance for this type of 
behavior and tells employees of the consequences if they do 
participate. But training is vitally important. When we do 
training, in-person training, it is amazing to see how men and 
women might have very different reactions to the same conduct 
that they view in the video. And when they have that dialogue, 
it helps to inform both groups where they are coming from and 
why it is problematic and unwelcome behavior.
    Mr. Brady. I thank both of you.
    I yield back, Mr. Chairman. Thank you.
    The Chairman. The gentleman yields back.
    I would ask the witnesses to just maybe pull your 
microphones a little closer to you as we are having some 
background noise.
    And the Chair will now recognize the Vice Chairman of the 
Committee, Mr. Davis, for the purpose of questions for 5 
minutes.
    Mr. Davis. Thank you, Mr. Chairman.
    Thank you, Ranking Member, for hosting this hearing.
    And I would like to thank my colleague Bradley, somebody 
who practiced employment law in Alabama. I think many of the 
comments in his opening testimony were very well stated.
    And the powerful testimony from my colleague Jackie. Thank 
you.
    And then also the opening statements of Barbara and Susan. 
Thank you for your testimony and your comments.
    I think it is long overdue, and I appreciate both of you 
and your opening statements because no one should have to worry 
about sexual harassment in the workplace. And as a former 
staffer, one of the reasons I wanted to serve on this Committee 
is to continue to professionalize the House and establish a 
workplace that is grounded in respect.
    I look forward to discussing with each of you the potential 
areas and current policy that need improvement and any areas 
you suggest that we need to make better because, in Congress, 
we have got to lead by example.
    My first question for both of you is: It is important we 
get this right. And I have a female-led staff. And I asked them 
their opinion. And they were concerned some offices--that an 
unintended consequence may be that some offices may just take a 
shortcut and not hire women as a way to avoid these issues. 
And, obviously, that is not the right approach. How do we 
ensure that we use this moment to work toward true prevention 
of sexual harassment while also continuing to make Capitol Hill 
a place of opportunity for female professionals?
    Ms. Childs Wallace. I think that one of the things that is 
just tremendous is to see women as Members. And I think that I 
am not as concerned about that with the strong, fantastic women 
that we have as Members. And I think as--there is a great 
wealth of experience and talent out there with females, and I 
would certainly hope that that would not be a consequence of 
harassment----
    Mr. Davis. Agreed.
    Ms. Childs Wallace [continuing]. Training.
    Ms. Lett. And my office certainly has had discussions 
with--we have heard that. And we have had those discussions 
with our clients to remind them that that is unlawful, and, 
obviously, individuals should be hired based on their merit 
without regard to gender. But, again, I think it is very 
important to have training. I keep coming back to that. And we 
do training on hiring techniques and things of that nature as 
well. But just awareness is very important with respect to that 
issue.
    Mr. Davis. Thank you both.
    Ms. Childs Wallace, what challenges does the OOC face in 
carrying out its educational duties? For example, I am a former 
district staffer. So how does the OOC reach out to the district 
offices, and how can we as a Committee be helpful?
    Ms. Childs Wallace. Well, there are several things, I 
think. First of all, one of the recommendations that we have 
made every other year is with regard to these posters. We are 
required by statute to develop these posters. These are the 
kind of posters that are posted in workplaces in the executive 
branch and in the private sector. And we do, and we hand them 
out. And there is no law that requires anybody in Congress to 
post these notices. They are notice of rights. They also talk 
about OOC. These can go in the district offices too.
    We do training with another outside organization through--I 
am blanking on the name of the organization--that does training 
in the district offices, and also, the online modules of 
training that we have that we have been developing and are 
continuing to develop more and more can be taken by employees 
in the district offices.
    Mr. Davis. Okay. Thank you. Thank you.
    Ms. Lett, if an employing office conducts an internal 
investigation, what role does OHEC play during the 
investigative process? And are there internal investigations 
that are resolved--I think you mentioned some--without using 
the OOC process?
    Ms. Lett. When an office contacts us and there is an issue 
with sexual harassment, we work with the office to conduct the 
investigation. We give them materials that are very exhaustive. 
Not every situation requires that they learn this 25-page 
document of instructions on how to conduct an investigation. 
But we work with them every step of the way.
    Some offices, their staff is very savvy, very comfortable 
doing investigations. And when I say ``investigations,'' in 
some instances, it may mean talking to two employees and 
figuring out what happened.
    But some offices aren't quite as comfortable with 
investigations. So what we will do is we will help them to get 
the help of an independent, outside investigator. And that 
investigator will get to the bottom of what is going on, report 
it to the office, and then we will work with that office to 
figure out what the appropriate corrective action is.
    Mr. Davis. Thank you both.
    I yield back.
    The Chairman. The gentleman yields back.
    The Chair will now recognize Congresswoman Speier for 5 
minutes for questions.
    Ms. Speier. Thank you, Mr. Chairman.
    Let me ask you, Ms. Lett, whether or not you end up 
representing the harasser in mediation or not?
    Ms. Lett. Our client is the employing office. So we never 
represent an individual. At the end of the day, someone 
obviously is accused of harassment, but they are not our 
client. The client is the employing office of the Member or the 
committee or the House office.
    Ms. Speier. So I think we are mincing words here. Let's say 
a Member is being accused of sexual harassment. You are 
representing the Member, correct?
    Ms. Lett. We are representing the employing office, which 
sometimes can also be the Member, yes.
    Ms. Speier. Do you think that is appropriate?
    Ms. Lett. I think it is appropriate given our role. Our 
role is an in-house law firm. We are no different than a 
private sector company. They have their own lawyers to 
represent them in these matters. And under the Congressional 
Accountability Act, the House employers are supposed to 
experience the same thing as private sector employers. So the 
situation is analogous.
    Ms. Speier. So when you are representing--let's, for 
discussion purposes, say the Member, it is your job to try and 
resolve this so that the Member is kept whole and none of it 
becomes public. Do you ever find yourself in a position of 
saying to the victim, ``You know, if you pursue this, your 
career on Capitol Hill is over''?
    Ms. Lett. My office absolutely would never say that to a 
victim. Our role is to assist the office in getting to the 
bottom of what is going on and to take appropriate action. In 
the case--we have had a couple of cases where the Member was 
the individual who was accused of the harassment. And there are 
corrective steps that can be taken to make sure the Member acts 
appropriately in those circumstances.
    Our office does not have the ability to discipline a 
Member, but certainly the Ethics Committee does, and leadership 
can interject in those situations as well.
    Ms. Speier. But if you settle a case between a Member and a 
staff member, it never goes to the Ethics Committee, correct?
    Ms. Lett. That is not necessarily true.
    Ms. Speier. Well, how would it go to the Ethics Committee?
    Ms. Lett. A staffer could bring a claim, can contact the 
Ethics Committee. Anyone can contact the Ethics Committee and 
allege that a Member has acted inappropriately.
    Ms. Speier. And kiss their job on Capitol Hill goodbye.
    Ms. Lett. That is not the way it is supposed to work, 
Congresswoman. Certainly, we assure--we have the employing 
office assure any employee who raises these claims that they 
will not be retaliated against because, if they are retaliated 
against, the office can be sued for retaliation.
    Ms. Speier. It is true, though, that the staff member must 
be in continuous employment in order to access the services of 
the OOC. Is that correct?
    Ms. Lett. I don't think that that's correct. I assume that 
the----
    Ms. Speier. Well, if they are no longer employed by the 
House of Representatives, then I have been told that this 
office is not available to them.
    Ms. Lett. I don't have that information.
    Ms. Speier. All right. What percentage of your mediations 
is between Member and staff versus staff and staff?
    Ms. Lett. I am sorry, Congresswoman. I can't hear because 
of the background noise.
    Ms. Speier. What percentage of your mediations is between 
Member and staff versus staff and staff?
    Ms. Lett. Overwhelmingly, the mediations concern staff and 
staff. It is very rarely when it involves a Member. But those 
occasions have occurred.
    Ms. Speier. Okay.
    Now, we have been told that if you are accusing someone of 
sexual harassment, that you are required to be in the same 
room; it is only in cases of sexual assault where you can be in 
separate rooms.
    Ms. Lett. That is not true. You are not required to be in 
the same room. I can tell you from my office, typically when we 
go to mediation, oftentimes, we don't take the alleged 
harasser, as we find the mediations to be more productive if we 
take someone else from the office who is in management, someone 
who is familiar with the underlying issues. I don't find it to 
be particularly productive to have an alleged harasser and a 
victim sit across the table from each other. So that is not how 
we approach it.
    Ms. Speier. Have you ever counseled an accuser that if they 
don't want to be in the same room, that the legitimacy of their 
complaints would be called into question?
    Ms. Lett. Can you give me that one again?
    Ms. Speier. Have you ever said to someone who was an 
accuser, a victim, who did not want to be in the same room, 
that in so doing, it would cause you to wonder about the 
legitimacy of their complaint?
    Ms. Lett. I don't recall ever doing that. It is really up 
to the employee's counsel to make that decision about whether 
or not they want them to be in the room. So it is not my call.
    Ms. Speier. Okay.
    I yield back. Thank you.
    The Chairman. Congresswoman Speier yields back.
    The Chair will now recognize Congresswoman Comstock for 5 
minutes for the purposes of questions.
    Mrs. Comstock. Thank you, Mr. Chairman.
    I also appreciate the testimony of my colleagues and 
particularly the very detailed additional things that we can do 
that Congressman Byrne laid out. And one of them I wanted to 
focus on was really giving the Members and senior staff some 
strict guidelines.
    So, taking my example of the Member in the towel, we really 
don't have current guidelines right now that say to a Member, 
say a sexual relationship with a 19-year-old intern is off 
limits. Is that at all clear right now? Because I haven't seen 
that in some of the materials, just flat out: Your chief of 
staff can't; your senior people--you know, we have these young 
interns. We have young staff. You cannot have this in our 
office.
    Ms. Lett. I am not aware of anything that says that 
specifically. As someone alluded to earlier, obviously, the 
code of conduct, which says that a Member and staff should 
conduct themselves in a manner at all times that reflects 
credibly upon the House, would be relevant in that context. But 
I don't know of a specific writing that says what you have 
just----
    Mrs. Comstock. Okay. And for any Seinfeld fans, you have 
the George Costanza rule, you know, where he got fired because 
he didn't know it was inappropriate to have sex on the desk in 
the office with the staff. I think that is something we do need 
to make clear from the Member on down because wouldn't you 
agree it creates a hostile work environment if there is that 
kind of relationship in an office?
    Ms. Lett. No question about it.
    Mrs. Comstock. All right. So that would be something when 
we are looking at just a hostile work environment, like say in 
this example, I think I would have done what this woman did, go 
find another job. Not everyone can do that. But if she hadn't, 
if she had gone along with this, then that is creating--that 
can go into creating a hostile work environment, right, for the 
other women in the office?
    Ms. Lett. Of course. And I would hope, again, that an 
employee would feel comfortable complaining to whoever would be 
appropriate in those circumstances. The way the model handbook 
policy is written, the employee is told--asked to report it to 
either their immediate supervisor or anyone in management with 
whom they feel comfortable making that complaint.
    Mrs. Comstock. Okay. And I appreciate you highlighting how 
the videos and the interactive, having people together because 
I know when I was at my law firm, we had that type of thing in 
our training. And I do think that is an important aspect of 
what we need here. So, as we are looking at this, any of the 
additional--I have been told, for example, the Navy does a good 
job. Other Federal agencies have materials. Perhaps it would be 
good for us to get more examples, if you can provide us, of 
some of the things that the other agencies and the private 
sector are doing. I think that would be helpful as we look at 
this.
    And then I had also wanted to ask about one of the 
suggestions that Dorena Bertussi, who is the first woman who I 
spoke of, that I had spoke to, what she suggested was an 
ombudsman. I think it gets to some of the questions that Ms. 
Speier had where there is sort of--I mean, your job is what 
Congress has told you to be at this point. And we are looking 
at how we might change that. But if we were to have an 
ombudsman who is that victim's support person, then that could 
be somebody maybe who would say, ``You know what, this is a 
criminal case, and you don't need mediation here, you need to 
go and deal with this legally,'' or, ``You know, here's the 
process of what you do if you go through--if you were to go to 
mediation or do these things,'' but have somebody who is really 
that victim's advocate. Is that something that you have seen in 
other workplaces or maybe, given the unique nature of our 
workplace, might be helpful?
    Ms. Lett. I have seen it in other workplaces. I believe at 
one time the Capitol Police had an ombudsman that their 
employees would go to to raise concerns. And it can be a 
successful model depending on how it is structured.
    Mrs. Comstock. And how do you--are you telling staff--when 
there are criminal cases here, and that is--I mean, I know, as 
I mentioned, as an intern, staffer, you know, when you heard 
criminal activity that went on, people who wouldn't go forward 
because they were afraid to, is that something that is--because 
I am--I think I am saying we tell people it is criminal, but 
really letting them know all of the things that are actually 
going on so they feel like they are not alone and they can go 
forward, that this has happened before, and, you know, to 
report something criminally?
    Ms. Lett. I can say, for our office, that is not our role. 
Our role is to provide legal advice and guidance to employing 
offices under the Congressional Accountability Act.
    Mrs. Comstock. But is there anybody identifying when 
something clearly is a crime?
    Ms. Lett. I am not aware of that.
    Mrs. Comstock. I think we may--that may be something we 
really, Mr. Chairman, we really need to look at because it may 
just be if you had a situation where somebody thought, ``Oh, 
you know, I was out with the boss, this happened, it was my 
fault,'' and we need to tell them, ``No, that wasn't your 
fault.''
    Ms. Speier. Will the gentlelady yield? Would you yield?
    Mrs. Comstock. Yes. Yes.
    Ms. Speier. One of the components of the legislation that 
will be introduced would have the victim be represented by a 
special victim's counsel, much like, in the military now, we 
have created that mechanism for victims of sexual assault.
    Mrs. Comstock. And then, but also--because I know at that 
point--but somebody sort of having that intermediary 
determination, like: Here's all the different places you can 
go. Here's a crime. Here you can have somebody. But also have 
somebody to talk it out with before we, you know, you decide 
what to do, the individual, so that they feel like they are 
covered more in some way. So maybe we can discuss that.
    Ms. Speier. Well, ostensibly, that is what the counseling 
component, that first 30 days of what is called counseling is 
actually legal counseling. It can be 1 day. It can be 1 hour. 
But it ostensibly takes place there. But, again, I am not 
convinced that the system we have in place protects the victim 
at all.
    Mrs. Comstock. Yeah. Agreed.
    Thank you, Mr. Chairman.
    The Chairman. The Chair will now recognize the gentleman 
from North Carolina, Mr. Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman. Thank you for your 
prompt leadership in this very, certainly, important issue.
    I would like to thank my colleagues for their earlier 
testimony and all the people that have spoken on this. It is a 
very important issue. And I am grateful to stand with such 
stanch advocates in our work to make the House of 
Representatives a respectful and safe environment for our 
fellow colleagues.
    As a minister, a pastor for nearly two decades, sadly, I 
have heard too many similar stories over the years. This type 
of behavior should never be tolerated here or in any other work 
environments. I believe that we should lead by example and set 
the tone for the Nation. And in leading by example, I was 
encouraged by our chairman to strongly encourage members of 
this Committee--so we have gone, certainly our entire staff. I 
am also chairman of the Republican Study Committee. So all 28 
staffers, as well as myself, have gone through some of the very 
clear and productive training. And I hope that that will lead 
to even more.
    But Ms. Childs Wallace, early this month, the Board of 
Directors wrote to the Speaker of the House and the President 
pro tem reiterating its call for mandatory antidiscrimination 
and antiharassment training. Is mandatory training the most 
effective deterrent to the problem of sexual harassment?
    Ms. Childs Wallace. It is one component of it. I think that 
leadership from within each office is also important and 
letting the employees know where they can go to complain is 
vitally important. But mandatory training is one very important 
component of trying to stop this.
    Mr. Walker. You say one very important part. In your 
research, are you able to boil down or identify what you would 
say is the most effective component of this?
    Ms. Childs Wallace. Probably mandatory training.
    Mr. Walker. Okay. All right. Is there any other deterrent 
that you would believe would be equal or a part of this 
process?
    Ms. Childs Wallace. Well, like I said, posting these 
notices and letting people know who we are and where they can 
go is important. And then leadership from the top as to what is 
appropriate and not appropriate.
    Mr. Walker. I believe, if I am correct, also cited in this 
letter to the Board of Directors, this recommendation has been 
made since 1996. Is that correct?
    Ms. Childs Wallace. We have made it many, many times. And I 
can't give you the exact number, but it is in our biennial 
reports that we recommend this.
    Mr. Walker. Well, can you tell me, was it first identified 
in 1996, or did earlier prompts of concerns kind of get this 
thing moving?
    Ms. Childs Wallace. I was not on the Board until 1999. So, 
prior to that, I can't tell you necessarily.
    Mr. Walker. We don't have any records or evidence or----
    Ms. Childs Wallace. We do have records. And if the 
Committee would like, we can go back and look at all of our 
102(b) reports and give you the exact dates that we made this 
recommendation.
    Mr. Walker. All right. Fair enough.
    Ms. Lett, in your opinion, what improvements can be made to 
the adjudication process administered by the Congressional 
Accountability Act?
    Ms. Lett. I have, I guess, a different take than what seems 
to be happening or the position. I think it is a very effective 
process. We have lots and lots of cases that are resolved 
through that process. Employment cases in general, the 
overwhelming majority are resolved before full-blown 
litigation. And I think the statistic is 85 percent of 
employment cases are resolved before full-blown litigation.
    I believe in this process. I mentioned this before, that 
once someone goes to the Office of Compliance and we engage in 
mediation, we may be hearing about the problem for the first 
time. But we do an investigation, and we get to the bottom of 
what is going on, and we make recommendations to the office for 
corrective action. So, as I said, I believe in the process as 
mandated by the statute. And I think it works very effectively 
to address the issue of sexual harassment just as it does for 
other forms of harassment and discrimination under title VII.
    Mr. Walker. Thank you for your responses.
    With that, I yield back.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentleman from Nebraska, 
Mr. Smith, for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    And certainly thank you to our witnesses, our Members, as 
well, for bringing insight and expertise to these very serious 
issues.
    We have talked a lot about the prevention--preventative 
measures that can or should be taken. I was wondering if you 
could speak more to what types of resources, whether it is 
funding or other resources, that either one of you think would 
help empower individuals throughout these processes?
    Ms. Childs Wallace. I appreciate your asking that question. 
Let me put it in the context of the Office of Compliance: If we 
are tasked with mandatory training throughout Capitol Hill, we, 
right now, have two employees who work on training along with 
other issues. It is going to be vitally important that we 
obtain funding to add what we figure is probably three more 
FTEs to help us do the training. So that is one thing--and also 
help with our IT process in the office. Like I said, we are a 
very, very small office.
    Other things, I think that training that both of us do, 
those are the resources that are just essential.
    Mr. Smith. Ms. Lett.
    Ms. Lett. For my office, we do a lot of training. We have 
gotten a lot of training requests in the last several weeks. We 
do the training here and again in the district offices. We have 
ramped up our training efforts. So we have multiple trainings 
occurring in any given day. We have ordered additional 
equipment, and that seems to be working very well.
    But I think if, ultimately, the decision is that there is 
going to be a requirement of mandatory training--and I really 
urge that for management--we may also need to have some 
additional staff hired to get that all accomplished.
    Mr. Smith. Okay. Thank you.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman yields back.
    The chair will now recognize Congresswoman Brooks for 5 
minutes.
    Mrs. Brooks. Thank you, Mr. Chairman.
    Ms. Lett, you talked about the large majority involve 
staff-on-staff issues. Can you share with us at what point in 
the process the Member is informed when a staffer comes to OHEC 
and initiates the process with OHEC? When is the Member brought 
into the process?
    Ms. Lett. The Member is really brought into the process 
from the very beginning because, if an employee goes to a 
supervisor, management, that is going to go up the chain of 
command, and the Member will be informed. So we will get calls 
from a chief of staff who has told us that they have already 
spoken with the Member, or we will get calls directly from the 
Member.
    Mrs. Brooks. And if it involves a chief of staff?
    Ms. Lett. If it involves a chief of staff, we would 
typically get the call directly from the Member.
    Mrs. Brooks. But if a staffer had come into OHEC directly, 
would you call the Member if it involved a chief of staff?
    Ms. Lett. Actually, we don't talk directly to staffers. 
That is not our role because we are lawyers for the employing 
office. So, if a staffer calls, we essentially will encourage 
them to go back to their management and speak to them because 
management can address a lot of these issues. And if they are 
not satisfied with that, then they can go to the Office of 
Compliance. But the only time we talk directly to employees is 
when we do training, employee training.
    Mrs. Brooks. And if you do get that inquiry from a staff 
member and you do not hear from anyone after that, does 
anything happen?
    Ms. Lett. We do do followup with offices to let them know 
that we have heard from someone and that there may be an issue 
in their office that they need to take a look at.
    Mrs. Brooks. And for both of you, you both mentioned large 
percentages of resolutions, resolutions prior to litigation or 
in lieu of litigation. Can you give us examples of resolutions?
    Ms. Lett. Well, I can speak to that. If there is an 
allegation that a coworker is making inappropriate statements 
in the workplace or sending an inappropriate text or email or 
something of that nature, we will have the employing office, a 
management employee, talk with both the person who is 
complaining about the behavior and the person who is the 
harasser to get to the bottom of what is going on and then 
figure out what the appropriate steps may be to address the 
behavior. And that could include counseling. That can include 
training. We do one-on-one training quite a bit, actually. That 
can include training for the staff. And it may also include 
some type of disciplinary action, a letter of reprimand, 
suspension without pay, and, for the more egregious cases, of 
course, termination.
    Mrs. Brooks. Thank you.
    Anything else, Ms. Childs Wallace, that you would like to 
add with respect to resolution?
    Ms. Childs Wallace. Sometimes in counseling, if we look at 
it not necessarily in the harassment context, but if someone 
came in and said, ``I am not afforded the same kind of training 
as the males in my office,'' it could be as easy as, once the 
employer is informed about it, they say, ``We didn't know you 
wanted it; you know, yes, let's get you on the next training on 
this.'' And that is a more simple resolution that doesn't 
require payments of money and a settlement or something like 
that.
    In a sex harassment context, it could be changing who your 
supervisor is, moving you to a different position or moving the 
alleged harasser to a different position so that there is no 
longer within the line of supervision.
    Ms. Lett. May I address that issue----
    Mrs. Brooks. Yes.
    Ms. Lett [continuing]. As to one additional point?
    An important part of the resolution is to get back to the 
person who complained to let them know that the office has 
taken the matter very seriously, has looked into the matter, 
and has taken appropriate action to make sure it stops, and to 
remind that individual that they cannot be retaliated against, 
and, if there is even the remote hint of retaliation, that they 
should come back to management to take care of it.
    Mrs. Brooks. And since I am here representing the Ethics 
Committee in many ways, can you both mention any improvements 
you might make relative to coordination with House Ethics 
Committee? And do you inform a complainant of that option, of 
pursuing their allegation at the Ethics Committee?
    Ms. Childs Wallace. I have to admit I am not as familiar 
with the Ethics procedures. I do know that if someone goes to 
the Ethics Committee and wants to make a complaint about sexual 
harassment, they are most likely directed to our office, which 
I do believe is appropriate. But I would welcome any kind of 
coordination between the Ethics Committee and the Office of 
Compliance. I think that would be wonderful on this issue.
    One thing that I would also like to say in the context of 
all of this is we don't want to limit this training or the 
Ethics coordination to just sex harassment. There are other 
kinds of--it is the issue of the day and the most important 
one. But there is harassment that occurs in other contexts, 
whether it is racial harassment, disability harassment, that 
the training should also address and try and stop. But, yes, 
nothing excites us more than the fact that Congress right now 
is looking at the issue from the standpoint of sex harassment.
    Mrs. Brooks. Ms. Lett, any recommendation with respect to 
Ethics?
    Ms. Lett. One of the ideas I think that has been mentioned 
is the idea that there be a record of the employees having 
taken sexual harassment training, much like there is a record 
created when we take ethics training. And so I think that would 
be a great idea to coordinate with your committee to make sure 
that those records are maintained to show that employees have, 
indeed, received the training.
    Ms. Childs Wallace. I agree with that a hundred percent. I 
think that is good.
    Mrs. Brooks. Thank you, Mr. Chairman, again, for including 
me. I yield back.
    The Chairman. Thank you. And I would also like to certainly 
thank Congresswoman Speier and Congresswoman Brooks for joining 
us today for this hearing. It has been very helpful to have 
your participation.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses which we will forward and ask the witnesses to 
respond as promptly as possible so that it can be a part of the 
record.
    I want to thank all of our witnesses for being here today. 
I know that Mr. Brady joins me in saying that it is apparent 
that mandatory training is a necessary first step to improving 
the House's process to address sexual harassment in the 
workplace.
    The Committee will continue to review the testimony given 
today, work with Members, and make additional recommendations 
to strengthen the process to ensure that the congressional 
workplace, which includes not only the Members of Congress and 
their offices but includes all the officers of the House, the 
Architect, the Capitol Police--all of these things have to be 
included--Congressional Budget Office, and, of course, the 
Office of Compliance. All of these things were included in 1995 
when Congress passed the Congressional Accountability Act.
    This type of behavior cannot be tolerated. And so I believe 
that raising the awareness today, we should set the standard of 
proper conduct in the workplace. And I hope this is the first 
step to getting there.
    Without objection----
    Mr. Brady. Chairman Harper.
    The Chairman. I will recognize Mr. Brady.
    Mr. Brady. Just for one second. I just want to say 
something to my colleague from California that I didn't agree 
with you. You said this is an uncomfortable thing for us to do. 
I have a wife, a daughter, two granddaughters, and a great 
granddaughter. It is not uncomfortable. It is our moral 
responsibility and obligation to protect somebody else's wife, 
daughter, and granddaughters. So I thank you, and I thank you 
for your courage.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Brady. And I associate myself 
with your remarks that you just made.
    Without objection, this hearing is adjourned.
    [Whereupon, at 11:39 a.m., the Committee was adjourned.]
    
    
                             <all>
    
</pre></body></html>
